CASE No.

In The
Supreme Court of the United States
LUMBSDEN A SANGSTER
Petitioner,
v.
DETECTIVE ANTHONY VALENCIA
Respondent

CIRTIFICATE OF COMPLIANCE

As required by the Supreme Court Rule 33.1(h), I certify that the
petition for a writ of certiorari contains 4,947 words, excluding the parts of
the petition that are exempted by the Supreme Court Rule 33.1(d), and the
compliance of the booklet format and text as required the Court Rule
33.1(a)(b)(c) and (e).
I declare under penalty of perjury that the foregoing is true and
correct.
Dated: July 1, 2021

Respectfully Submitted
Lumbsden A Sangster

70
Lumbsden A Sangster
Plaintiff, Appellant, and Petitioner
In Pro-se

